                                                            National Railroad Passenger Corporation
                                                                          Office of Inspector General
                                                                                         10 G Street, N.E.
                                                                                    Washington, DC 20002



.
                              Lead Service Attendant Sentenced
                                      March 24, 2011
                                    Case Number 04-91

The Office of Inspector General (OIG), Office of Investigations (OI), recently learned that a
former Amtrak Lead Service Attendant (LSA) who was the subject of an OI investigation was
sentenced to 1 year’s probation and time served (67) days. She was also ordered to pay fines,
costs, and fees.

After being indicted and charged with one count of theft/deception and one count of
theft/unauthorized control of more than $300 and less than $10,000, the LSA failed to appear for
her initial hearing in 2006. An outstanding bench warrant resulted in her arrest and subsequent
sentencing.
